Audit Report




OIG-11-010
SAFETY AND SOUNDNESS: Failed Bank Review of Beach First
National Bank
November 3, 2010




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                             November 3, 2010


            OIG-11-010

            MEMORANDUM FOR JOHN WALSH
                           ACTING COMPTROLLER OF THE CURRENCY

            FROM:                 Jeffrey Dye /s/
                                  Director, Banking Audits

            SUBJECT:              Failed Bank Review of Beach First National Bank


            This memorandum presents the results of our review of the failure of Beach First
            National Bank (Beach First). Beach First opened in September 1996 and had a main
            office in Myrtle Beach, South Carolina, and seven branches located throughout
            South Carolina in North Myrtle Beach, Surfside Beach, Pawleys Island, and Hilton
            Head. The Office of the Comptroller of the Currency (OCC) closed Beach First and
            appointed the Federal Deposit Insurance Corporation (FDIC) as receiver on April 9,
            2010. As of December 31, 2009, Beach First had approximately $585.1 million in
            total assets and $516.0 million in total deposits. FDIC has estimated that the loss
            to the Deposit Insurance Fund is $130.3 million.

            Because the loss to the Deposit Insurance Fund is less than $200 million, as set
            forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
            review of the failure of Beach First that was limited to (1) ascertaining the grounds
            identified by OCC for appointing the FDIC as receiver, and (2) determining whether
            any unusual circumstances exist that might warrant a more in-depth review of the
            loss. In performing our review we (1) reviewed documentation related to the
            appointment of FDIC as receiver, (2) reviewed OCC reports of examination, and
            (3) interviewed OCC examination personnel.

            We conducted this performance audit in September 2010 in accordance with
            generally accepted government auditing standards. Those standards require that
            we plan and perform the audit to obtain sufficient, appropriate evidence to provide
            a reasonable basis for our findings and conclusions based on our audit objectives.
            We believe that the evidence obtained provides a reasonable basis for our findings
            and conclusions based on our audit objectives.
OIG-11-010
Page 2

Causes of Beach First’s Failure
The primary cause of Beach First’s failure was management’s aggressive growth
strategy primarily concentrated in non-owner occupied commercial real-estate (CRE)
within South Carolina, specifically vacation homes in the state’s coastal region. Beach
First’s management underwrote CRE loans with variable interest rates without
establishing any lower interest rate thresholds. These loans were also funded using
high-cost funding sources, including brokered deposits. When interest rates began to
fall during the decline in the real estate market in 2007, the bank’s interest income
was not sufficient to cover the high-cost of funding, resulting in negative net interest
income.

Poor credit risk and loan portfolio management were also causes of the bank’s failure.
For example, examiners found that the bank performed incomplete analyses of
borrowers’ financial condition and failed to obtain appropriate real estate appraisals.
When the CRE market declined, the bank’s asset quality deteriorated, threatening the
bank’s viability by adversely impacting capital and earnings. Increased loan losses and
provision expenses caused the bank’s capital levels to fall to critically undercapitalized,
which ultimately led to the bank’s failure.

Conclusion
Based on our review of the causes of Beach First’s failure and the grounds
identified by OCC for appointing FDIC as receiver, we determined that there were
no unusual circumstances surrounding the bank’s failure or the supervision
exercised by OCC. Accordingly, we have determined that a more in-depth review of
the bank’s failure by our office is not warranted.

We provided a draft of this memorandum to OCC management for comment. In its
response, OCC stated it agreed with our conclusion as to the causes of Beach
First’s failure and that it had no concerns with our determination that an in-depth
review of the bank’s failure was not warranted. The response is provided as
Attachment 1. A list of the recipients of this memorandum is provided as
Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-0384 or
Rashmi Bartlett, Audit Manager, at (202) 927-5839.

Attachments
         OIG-11-010

       Attachment 1
Management Response
                                                   OIG-11-010

                                                  Attachment 2
                                                    Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Evaluations
   Office of Accounting and Internal Control

Office of the Comptroller of the Currency

   Acting Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
